Case: 20-50469

Document: 00515814419

Page: 1

Date Filed: 04/08/2021

Uniteti States Court of appeals!
for tfje JfiftI) Circuit
No. 20-50469

Jay Warren Arnold
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department ofCriminal Justice,
Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Western District of Texas
USDC No. 6:19-CV-332

Before Willett, Ho, and Duncan, Circuit Judges.
Per Curiam:
A member of this panel previously DENIED Appellant’s Motion for
a Certificate of Appealability and GRANTED Appellant’s Motion for leave
to amend Motion for a Certificate ofAppealability. The panel has considered
Appellant’s motion for reconsideration of Motion for a Certificate of
Appealability only.
IT IS ORDERED that the motion is DENIED.

Case: 20-50469

Document: 00515782904

Page: 1

Date Filed: 03/16/2021

®ntteb States! Court of Appeals!
for tfje Jftftlj Ctrcuft
United States Court of Appeals
Fifth Circuit

FILED

No. 20-50469

March 16,2021
Lyle W. Cayce
Clerk

Jay Warren Arnold,

Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department ofCriminal Justice,
Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Western District of Texas
USDCNo. 6:19-CV-332

ORDER:
Jay Warren Arnold, Texas prisoner # 2061090, seeks a certificate of
appealability (COA) to appeal the denial of his 28 U.S.C. § 2254 petition in
which he challenged his convictions and 60-year sentence for family violence
aggravated assault and aggravated kidnapping. The district court dismissed
the federal petition as time barred.
To obtain a COA, Arnold must make a substantial showing of the
denial of a constitutional right. 28 U.S.C. § 2253(c)(2); Slack v. McDaniel,
529 U.S. 473, 484 (2000). Where, as here, a claim is denied by the district
court on procedural grounds, the petitioner must show “ that jurists ofreason

Case: 20-50469

Document: 00515782904

Page: 2

Date Filed: 03/16/2021

No. 20-50469

would find it debatable whether the petition states a valid claim of the denial
of a constitutional right and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling.” Slack,
529 U.S. at 484. Arnold has not made the requisite showing. See id.
Accordingly, Arnold’s motion for a COA is DENIED. His motion
for leave to amend the COA motion is GRANTED.

Stuart Kyle Duncan
United States Circuit Judge

2

Case 6:19-cv-00332-ADA Document 20 Filed 05/28/20 Page 1 of 10

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
WACO DIVISION

JAY WARREN ARNOLD #2061090
V.
LORIE DAVIS

§
§
§
§
§

W-19-CA-332-ADA

ORDER
Before the Court is Petitioner's Petition For a Writ of Habeas Corpus by a Person
in State Custody (#1), Respondent's Response (#12), Petitioner's Reply (#16), and
Petitioner's Supplement (#17)1. Petitioner also files a request for leave to file a motion
for release on bail (#19). The Court dismisses that motion because, by Petitioner's own
admission, he has failed to exhaust his state court remedies for seeking release.
Petitioner is proceeding pro se and in forma pauperis. For the reasons set forth below,
Petitioner's application for writ of habeas corpus is dismissed with prejudice as timebarred.
Procedural History
According to Respondent, the Director has lawful and valid custody of Petitioner
pursuant to a judgment and sentence of the 54th District Court of McLennan County,
Texas for aggravated assault-family violence and aggravated kidnapping. Ex parte
Arnold, App. No. 88,555-02 (SHCR (#14-35) at 271-274). Petitioner was found guilty by
1 Petitioner moves for leave to file a supplement to his reply, which the Court grants.
The Court has considered both his reply and his supplement.
i

Case 6:19-cv-00332-ADA Document 20 Filed 05/28/20 Page 2 of 10

a jury and sentenced to 60 years of imprisonment on each charge, to run concurrently.
Petitioner appealed to the Sixth Court of Appeals which affirmed the convictions. Arnold
v. State, No. 06-16-00062-CR, 2016 WL 6995484 (Tex. App.—Texarkana Nov. 29, 2016,
pet. ref.). Four months later, the Texas Court of Criminal Appeals refused Petitioner's
petition for discretionary review. Arnold v. State, PD No. 0002-17 (Tex. Crim. App. Mar.
29, 2017).
On April 24, 2018, Petitioner filed a state application for habeas relief. SHCR
(#14-2) at 41. The Texas Court of Criminal Appeals dismissed this application on July
18, 2018, as untimely. See SHCR (#13-46). Petitioner filed a second state habeas
application on November 13, 2018, which was denied by the Texas Court of Criminal
Appeals without written order on March 27, 2019. Id. (#14-11). Petitioner signed his
federal habeas petition on May 22, 2019.
DISCUSSION
Respondent argues that Petitioner's application is barred by the one-year statute
of limitations. Federal law establishes a one-year statute of limitations for state inmates
seeking federal habeas corpus relief. See 28 U.S.C. § 2244(d). That section provides,
in relevant part:
(d)(1) A 1-year period of limitation shall apply to an application for a writ
of habeas corpus by a person in custody pursuant to the judgment of a
State court. The limitation period shall run from the latest of-(A) the date on which the judgment became final by the conclusion
of direct review or the expiration of the time for seeking such
review;
(B) the date on which the impediment to filing an application
created by State action in violation of the Constitution or laws of
the United States is removed, if the applicant was prevented from
filing by such State action;
2

Case 6:19-cv-00332-ADA Document 20 Filed 05/28/20 Page 3 of 10

(C) the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly
recognized by the Supreme Court and made retroactively applicable
to cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of due
diligence.
(2) The time during which a properly filed application for State post­
conviction or other collateral review with respect to the pertinent
judgment or claim is pending shall not be counted toward any period of
limitation under this subsection.
Petitioner's conviction became final, at the latest, on August 1, 2017, when the
time for filing a petition for writ of certiorari expired. Sup. Ct. R. 13.1. Therefore,
Petitioner had until August 1, 2018, to timely file his federal application. Petitioner did
not execute his federal application for habeas corpus relief until May 22, 2019, over
nine months after the limitations period had expired.
The limitations period may be tolled for "the time during which a properly filed
application" for state habeas relief is pending. 28 U.S.C. § 2244(d)(2) (emphasis
added). A state habeas application is properly filed "when its delivery and acceptance
are in compliance with the applicable laws and rules governing filings." Artuz v.
Bennett, 531 U.S. 4, 8, (2000). See also Broussard v. Thaler, 414 F. App'x 686, 688,
2011 WL 701227, at *3 (5th Cir. 2011) (concluding that the prisoner's habeas
application was not properly filed because the TCCA dismissed the application for failing
to comply with Rule 73.1 and, as such, it did not toll AEDPA's statute of limitations);
Wickware v. Thaler, 404 F. App'x 856, 858, 2010 WL 5062314, at *2 n.2 (5th Cir. 2010)
(unpublished) (noting that unpublished panel decisions from the Fifth Circuit illustrate
persuasively that, as a general rule, the state prisoner must comply with the required
3

Case 6:19-cv-00332-ADA Document 20 Filed 05/28/20 Page 4 of 10

habeas format set forth in the Texas Rules of Appellate Procedure in order to meet the
"properly filed" requirement for statutory tolling under AEDPA).
Petitioner's conviction became final on August 1, 2017. In September of 2017,
Petitioner filed a handwritten pro se motion in the trial court seeking the appointment
of counsel and subpoenas of assorted evidence. The motion was apparently
disregarded since it was being filed after Petitioner's conviction was final. Then, on
January 8, 2018, Petitioner chose to file a pro se motion to disqualify or recuse his trial
court judge from presiding over his forthcoming state habeas application. On February
2, 2018, these motions were denied and dismissed as untimely due to the fact that
Petitioner had not yet filed his state habeas application. Rather than file his state
habeas application at that point, however. Petitioner instead appealed the denial and
dismissal of his untimely recusal motion. However, on February 9, 2018, the state
appellate court dismissed his appeal because it was not authorized. Again, Petitioner did
not opt to file a state habeas application at that point, but instead sought en banc
reconsideration of his motion to recuse. This request was denied on March 21, 2018. At
that point, Petitioner decided to continue the appeal process for his untimely motion to
recuse and filed a petition for discretionary review on the issue which was eventually
denied by the Texas Court of Criminal Appeals on September 26, 2018.
While his petition for discretionary review on the recusal issue was pending,
Petitioner's filed his first state habeas application on April 24, 2018. It was dismissed by
the Texas Court of Criminal Appeals, however, as untimely filed because Petitioner still
had the related appeal of a motion for recusal pending. In other words. Petitioner's first
4

Case 6:19-cv-00332-ADA Document 20 Filed 05/28/20 Page 5 of 10

state habeas application was not "properly filed" and therefore did not toll the
limitations period during the time it was pending. The dismissal of the improperly filed
application occurred on July 18, 2018, which would still have given Petitioner two weeks
to file a protective petition in this Court. Nonetheless, he failed to do so. Instead,
Petitioner waited until the expiration of the AEDPA limitations period on August 1, 2018,
before filing his second state habeas application on November 13, 2018.
Even if, as Petitioner claims, it was impossible for him to properly file a state
habeas petition in sufficient time to meet his federal limitations period because the
other motions he had filed with the trial court prevented the Texas Court of Criminal
Appeals from accepting a petition and ruling on it, this does not entitle him to statutory
tolling for that period. In essence, Petitioner chose to pursue an unorthodox strategy of
filing motions in an attempt to preemptively have a different judge assigned to review
his state habeas petition. In filing these motions, however, Petitioner was making a
choice not to pursue his state habeas petition until this issue could be resolved. Having
made this choice, he prevented the Texas Court of Criminal Appeals from considering
his initial habeas application as timely and the result was that the AEDPA deadline was
not tolled. The motions Petitioner chose to file do not entitle him to statutory tolling
because they were not "other collateral review" of his conviction. Rather, his motions
dealt with side issues relating to his potential habeas filing, not any actual challenge of
his conviction on the merits.
Petitioner also appears to contend he is eligible for equitable tolling. "[A] litigant
seeking equitable tolling bears the burden of establishing two elements: (1) that he has
5

Case 6:19-cv-00332-ADA Document 20 Filed 05/28/20 Page 6 of 10

been pursuing his rights diligently, and (2) that some extraordinary circumstance stood
in his way." Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005). Although the Fifth Circuit
has permitted equitable toiling in certain cases, it requires a finding of "exceptional
circumstances." Davis v. Johnson, 158 F.3d 806, 811 (5th Cir. 1998) (finding
"exceptional circumstances" in a case in which the trial court considering the petitioner's
application under Section 2254 granted the petitioner several extensions of time past
the AEDPA statute of limitations). The Fifth Circuit has consistently found no exceptional
circumstances in other cases where petitioners faced non-routine logistical hurdles in
submitting timely habeas applications. See e.g. Felder v. Johnson, 204 F.3d 168, 171
(5th Cir. 2000) (proceeding pro se is not a "rare and exceptional" circumstance because
it is typical of those bringing a § 2254 claim). As the Fifth Circuit has pointed out,
"Congress knew AEDPA would affect incarcerated individuals with limited access to
outside information, yet it failed to provide any tolling based on possible delays in
notice." Fisher v. Johnson, 174 F.3d 710, 714 (5th Cir. 1999). The Fifth Circuit
explained that equitable tolling "applies principally where the plaintiff is actively misled
by the defendant about the cause of action or is prevented in some extraordinary way
from asserting his rights," and noted that "excusable neglect" does not support
equitable tolling. Coleman v. Johnson, 184 F.3d 398, 402 (5th Cir. 1999) (quoting
Rashid! v. America President Lines, 96 F.3d 124, 128 (5th Cir. 1996)).
Petitioner asserts that his first filed state habeas application was an attempt to
toll the limitations period because he recognized that his pending motion for recusal
would be a hindrance to a timely filing. Petitioner argues that this shows his diligence in
6

Case 6:19-cv-00332-ADA Document 20 Filed 05/28/20 Page 7 of 10

pursuing his rights. The question is whether Petitioner can be said to have been
diligently pursuing relief when he was the person responsible for filing the motions in
the state trial court that, in part, prevented him from being timely. The Court
determines that he was not diligent. He instead sought to pursue a different course of
action, that course failed, and now he cannot be heard to complain that the choice to
pursue that course took too long and prevented him from timely filing in this Court. In
fact, Petitioner's claims for equitable relief make it clear that he understood the correct
way to obtain statutory tolling, but simply failed to pursue that avenue, instead opting
for what proved to be a frivolous motion to disqualify a judge in advance of that judge
considering his habeas application.
In addition, Petitioner fails to identify any "extraordinary circumstance" which
prevented him from pursuing his relief in a timely fashion. Indeed, if he had simply filed
his state habeas application simultaneously with his request for recusal of the judge, he
may well have been timely in this Court. Instead, he sought to preemptively disqualify
the judge. When told by the court that he was seeking that relief too early, he appealed
the decision. If he had instead chosen to file a habeas application at that time, he may
still have been timely in this Court. However, having chosen to fight this other battle
instead of pursuing his state habeas application in a diligent fashion, Petitioner's pursuit
of relief cannot be said to be the result of any extraordinary circumstance, except
insofar as it was a circumstance of his own creation.
Petitioner also may be contending that the untimeliness of his application should
be excused because he is actually innocent. In McQuiggin v. Perkins, 133 S. Ct. 1924
' 7

Case 6:19-cv-00332-ADA Document 20 Filed 05/28/20 Page 8 of 10

(2013), the Supreme Court held a prisoner filing a first-time federal habeas petition
could overcome the one-year statute of limitations in § 2244(d)(1) upon a showing of
"actual innocence" under the standard in Schlup v. Delo, 513 U.S. 298, 329 (1995). A
habeas petitioner, who seeks to surmount a procedural default through a showing of
"actual innocence," must support his allegations with "new, reliable evidence" that was
not presented at trial and must show that it was more likely than not that, in light of
the new evidence, no juror, acting reasonably, would have voted to find the petitioner
guilty beyond a reasonable doubt. See Sch/up, 513 U.S. at 326-27 (1995); see also
House v. Bell, 547 U.S. 518 (2006) (discussing at length the evidence presented by the
petitioner in support of an actual-innocence exception to the doctrine of procedural
default under Schlup). "Actual innocence" in this context refers to factual innocence and
not mere legal sufficiency. Bousely v. United States, 523 U.S. 614, 623-624 (1998).
"The Supreme Court has not explicitly defined what constitutes 'new reliable
evidence' under the Schlup actual-innocence standard." Hancock v. Davis, 906 F.3d
387, 389 (5th Cir. 2018). However, the Fifth Circuit has made clear that "evidence does
not qualify as 'new' under the Schlup actual-innocence standard if 'it was always within
the reach of [petitioner's] personal knowledge or reasonable investigation.'" Hancock,
906 F.3d at 390 (quoting Moore v. Quarterman, 534 F.3d 454, 465 (5th Cir. 2008)).
Petitioner fails to provide any new evidence whatsoever that would support a claim of
actual innocence.
The record does not reflect that any unconstitutional state action impeded
Petitioner from filing for federal habeas corpus relief prior to the end of the limitations
8

Case 6:19-cv-00332-ADA Document 20 Filed 05/28/20 Page 9 of 10

period. Furthermore, Petitioner has not shown that he could not have discovered the
factual predicate of his daims earlier. Finally, the claims do not concern a constitutional
right recognized by the Supreme Court within the last year and made retroactive to
cases on collateral review.
CONCLUSION
Petitioner's application for habeas corpus relief is dismissed with prejudice as
time-barred.
CERTIFICATE OF APPEALABILITY
An appeal may not be taken to the court of appeals from a final order in a
habeas corpus proceeding "unless a circuit justice or judge issues a certificate of
appealability." 28 U.S.C. § 2253(c) (1)(A). Pursuant to Rule 11 of the Federal Rules
Governing Section 2254 Cases, effective December 1, 2009, the district court must
issue or deny a certificate of appealability when it enters a final order adverse to the
applicant.
A certificate of appealability may issue only if a petitioner has made a substantial
showing of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). The Supreme
Court fully explained the requirement assodated with a "substantial showing of the
denial of a constitutional right" in Slack v. McDaniel, 529 U.S. 473, 484 (2000). In
cases where a district court rejected a petitioner's constitutional claims on the merits,
"the petitioner must demonstrate that reasonable jurists would find the district court's
assessment of the constitutional daims debatable or wrong." Id. "When a district court
denies a habeas petition on procedural grounds without reaching the petitioner's
9

■j

Additional material
from this filing is
available in the
Clerk's Office.

